1
Zoe Ajjahnon
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
Ph.: 551-270-3966
June 14, 2021
Via Certified Mail FedEx mail carrier
ATTN. Clerk of the U.S. Supreme Court
SUPREME COURT OF THE UNITED STATES
1 First Street, NE
Washington, DC 20543
RE: Case No. 20-7606,
Zoe Ajjahnon, Plaintiff - Petitioner v. St. Joseph Medical Center, & RWJ Barnabas
Health, Defendants-Respondents
Dear Clerk of Court:
I, Zoe Ajjahnon, Plaintiff-Petitioner in this matter enters this timely PETITION FOR
REHEAR of the June 1, 2021 denial of the Petition for Writ of Certiorari. Accompanying
the Rehear petition is a MOTION FOR EXTRAORDINARY WRIT OF SUMMARY /
DEFAULT JUDGMENT.
Service is made on Defendants-Respondents as follows,
Certification of Service on June 14, 2021:
1) Counsels for defendant St. Jospehs Medical Centre,
Jeffrey A. Krompier, esq; Jason M. Altschul, esq. Via Email:
jkrompier@krompiertamn.com; jaltschul@krompiertamn.com
2) Counsels for defendant RWJ Barnabas Health, Inc.
Robert J. Logan, esq.; Lauren M. Strollo, esq. Via Email: rlogan@vasiolaw.com;
Istrollo@vasiolaw.com

Sincerely, _ ..

Zoe

1s/
inon, Pro Se Plainfm/Petitioner

RECEIVED
JUN 1 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

